No. 19-631

JJn 'm:be

~upreme <!Court of toe fflniteb ~tates
WILLIAM P. BARR, ATTORNEY GENERAL; FEDERAL COMMUNICATIONS COMMISSION,

Petitioners,

V.

AMERICAN AsSOCIATION OF POLITICAL CONSULTANTS, INC., ET AL.,

Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT

BRIEF FOR RESPONDENTS IN SUPPORT OF CERTIORARI
CERTIFICATE OF SERVICE
I, Roman Martinez, counsel of record for Respondents the American
Association of Political Consultants, Inc., the Democratic Party of Oregon, Inc., Public
Policy Polling, LLC, and the Washington State Democratic Central Committee, and
a member of the Bar of this Court, hereby certify that on the 4th day of December,
2019, I caused to be served three (3) copies of the Brief for Respondents in Support of
Certiorari in the above-referenced case by U.S. first-class mail, postage prepaid, upon
the counsel for Petitioner as listed below:

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioners
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Brief for Respondents in Support of Certiorari was transmitted to
counsel for Petitioner at the email address indicated above.
I further certify that all parties required to be served have been served.

By

~

~-v[__

ROMAN MARTINEZ

LATHAM & WATKINS LLP
555 Eleventh Street NW
Suite 1000
Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com
Counsel for Respondents

2

